■I

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

AUG 7 2020

FOR THE NINTH CIRCUIT
DEYOE R. HARRIS,

No.

Plaintiff-Appellant,

MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

18-15159

D.C. No. 4:14-cv-02453-LCK

v.
MEMORANDUM*
UNIVERSITY OF ARIZONA POLICE
DEPARTMENT, UofAPD; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Arizona
Lynnette C. Kimmins, Magistrate Judge, Presiding
Submitted August 5, 2020**
San Francisco, California
Before: THOMAS, Chief Judge, and HAWKINS and McKEOWN, Circuit Judges.
Appellant Deyoe Harris, proceeding pro se, challenges the jury’s verdict
finding Appellees did not use excessive force during a 2013 stop where Harris was

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decision without
oral argument. See Fed. R. App. P. 34(a)(2).

y
tased, handcuffed, and taken to the hospital.1 The scope of our review is limited to
the issues raised by Harris in his opening brief, notwithstanding his pro se status.2
SeeEntm’t. Rsch. Grp., Inc. v. Genesis Creative Grp., Inc., 122 F.3d 1211, 1217 (9th
Cir. 1997); Wilcox v. Comm’r, 848 F.2d 1007, 1008 n.2 (9th Cir. 1988).
On substantial evidence review, we find no grounds to overturn the jury’s
verdict. See Barnard v. Theobald, 721 F.3d 1069, 1079 (9th Cir. 2013). The jury
heard from officers, medical personnel, and witnesses that Harris was uncooperative,
combative, yelling, and actively resisting. The jury also heard Harris’s version, and
it was their role to assess credibility, not ours. See Hung Lam v. City of San Jose,
869 F.3d 1077, 1085 (9th Cir. 2017). With multiple witnesses testifying about
Harris’s erratic and uncontrollable behavior leading up to the use of a taser, there is
substantial evidence in the record to support the jury’s verdict. Id.
AFFIRMED.

We deny Harris’s pending motions to admit evidence and for consideration.
[Docs. 8 and 47.]
2 We received an amicus brief raising several evidentiary issues that Harris
does not appeal. We find review on these grounds not necessary “to prevent a
miscarriage of justice or to preserve the integrity of the judicial process.” Bolker v.
Comm’r, 760 F.2d 1039, 1042 (9th Cir. 1985); see also Thompson v. Mahre, 110
F.3d 716, 720-21 (9th Cir. 1997) (on review of record, issue raised by amici not
present).
2

Case 4:14-cv-02453-LCK Document 273 Filed 01/16/18 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA
Deyoe R. Harris,

)

Plaintiff,

)

vs.
Jeffry Dellinger,

)

JUDGMENT IN A CIVIL CASE

)
)
)

Case No. CV14-02453-TUC-LCK

Defendant
)

This action was tried by a jury with Magistrate Judge Lynnette
C. Kimmins presiding, and the jury has rendered a verdict.
IT IS ORDERED that Plaintiff Deyoe R. Harris recover nothing,
the action be dismissed on the merits.

\

1/12/2018
Date

Brian Karth
CLERK
s/Cindy Stewart
By: Deputy Clerk

